                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: A13030047                                                                       Page 1 of 1


                OIG conducted an inquiry into an allegation of intellectual theft in an NSF proposal[ 11 •
         We identified substantial overlap of text between a proposal previously submitted to another
         agency 21 and the NSF proposal. We also noted one author of the previous proposal was not
         included as a co-PI or collaborator on the NSF proposal.

                We contacted the PI and co-PI (Subjects),r3J who explained that the omitted author's
         contributions to the previous proposal had been minimal and that his input and role had been
         removed from the proposal submitted to NSF because of a change in the scope of research being
         proposed.

                 As co-authors of a proposal jointly written with others, the Subjects hold an undivided
         interest in, and right to make further use of, the intellectual content ofthe joint work, unless
         evidence is provided that shows portions of the document to be separable and attributable to one
         specific author. According to their statement, the PI and co-PI removed the omitted author's
         contributions to the previous proposal, leaving only their own contributions. After reviewing
         materials gathered during our inquiry, we determined there was not enough evidence to rebut the
         Subjects' statement and support an allegation of intellectual theft.

                   Accordingly, this case is closed.




NSF OIG Form 2 (11/02)
